Nos. 20-197
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES ET AL., PETITIONERS
v.
KNIGHT FIRST AMENDMENT INSTITUTE AT COLUMBIA UNIVERSITY, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the SUPPLEMENTAL BRIEF FOR THE PETITIONERS, via email and first-class mail,
postage prepaid, this 19th day of January 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1707
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 19, 2021.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 19, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0197
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES, ET AL.
KNIGHT FIRST AMENDMENT INSTITUTE AT
COLUMBIA UNIVERSITY, ET AL.

JESSICA RING AMUNSON
JENNER & BLOCK LLP
1099 NEW YORK AVENUE NW
SUITE 900
WASHINGTON, DC 20001
202-639-6023
JAMUNSON@JENNER.COM
JAMEEL JAFFER
KNIGHT FIRST AMENDMENT INSTITUTE AT
475 RIVERSIDE DRIVE
SUITE 302
NEW YORK, NY 10115
646-745-8500
MAILTO:JAMEEL.JAFFER@KNIGHTCOLUMBI
A.ORG

